                                O ffice of th e Ins pe ctor Ge ne ral


K e nne th S. A pfe l

Com m is s ione r of SocialSe curity


Ins pe ctor Ge ne ral



Re vie w of th e SocialSe curity Adm inis tration’
                                                 s M onitoring of Se l
                                                                     e cte d Facil

                                                                                 itie s
M anage m e nt Proje cts


Th e attach e d finalre port pre s e nts th e re s ul ts of our re vie w e ntitl e d, “Re vie w of
th e SocialSe curity Adm inis tration’      s M onitoring of Se l e cte d Facil itie s M anage m e nt
Proje cts ”(A-13-9 7-02005). Th e obje ctive of our re vie w w as to re s pond to
q ue s tions rais e d in a l
                           e tte r from Congre s s m an Robe rt L. Eh rl  ich , Jr. conce rning
cos t ove rruns for tw o cons truction proje cts at th e SocialSe curity Adm inis tration
and th e m ainte nance and re pl      ace m e nt of K ath abar de h um idifying e q uipm e nt.

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl ate d on our
re com m e ndations . Ifyou ch oos e to offe r com m e nts , ple as e provide th e m w ith in
60 days . Ifyou w is h to dis cus s th e finalre port, pl
                                                        e as e callm e or h ave your s taff
contact Pam e l a J. Gardine r, Assistant Ins pe ctor Ge ne ralfor Audit, at
(410)9 65-9 700.




                                                       D avid C. W il
                                                                    liam s

A ttach m e nt

cc:

O IG/ES

Re ading Fil
e
Subje ct File
                                 h /11-20-9 7
SSA /O IG/O A /CM A RK O W ITZ /cl                     9 7-02005.FNL
Re port Fil
          e
                  E X E CUTIVE S U M M A R Y 


O BJECTIVES

Th e firs t obje ctive of th is e valuation w as to de te rm ine re as ons for cos t ove rruns
conne cte d w ith tw o cons truction proje cts for w h ich th e SocialSe curity
Adm inis tration (SSA )contracte d--one at SSA H e adq uarte rs in
W oodl  aw n, M aryl  and, and th e oth e r at th e M e tro W e s t Com pl  e x in
Bal tim ore , M aryl and. Th e s e cond obje ctive w as to re vie w th e m ainte nance of th e
K ath abar e q uipm e nt th at de h um idifie s th e air for th e M e tro W e s t Com pl
                                                                                       e x.1

BACKGROUND

W e initiate d a re vie w bas e d on a l   e tte r from Congre s s m an Robe rt L. Eh rich l , Jr.
conce rning cos t ove rruns of tw o cons truction proje cts and th e m ainte nance of
e q uipm e nt th at de h um idifie s th e air for th e M e tro W e s t Com ple x in
Bal tim ore , M aryl and. Spe cifical    l
                                         y, th e Congre s s m an as k e d about th e re ce ntl    y
cons tructe d AnnualW age Re port (AW R)com pute r room th at re q uire s m ajor
m odifications due to de ficie ncie s in th e originalw ork m ans h ip. H e al        s o as k e d h ow
m uch it w oul   d cos t SSA to re pair th is room . Th is com pute r room is l         ocate d at
SSA ’  s M e tro W e s t Com pl e x in Bal tim ore , M aryl and. Th e s e cond cons truction
proje ct invol  ve s re novations of a fitne s s ce nte r l  ocate d at SSA H e adq uarte rs in
W oodl   aw n, M aryl  and. Congre s s m an Eh rl    ich w as conce rne d th at th e contractor
m ay h ave be e n ove rpaid and w h e th e r th e contractor coordinate d w ith SSA ’            s
e ngine e rs during th e cours e of th e w ork . Th e Congre s s m an al      s o re q ue s te d
inform ation about a de h um idifying s y s te m , cal    le d a K ath abar. H e as k e d if it is
be ing re pl ace d be caus e it h as ne ve r be e n m aintaine d prope rl  y;and if s o, w h at th e
cos t w oul  d be to re pl ace it.

W e e xam ine d contracts , cons truction and m ainte nance docum e nts ,

corre s ponde nce , m e m os , and oth e r availabl e re cords re late d to th e com pute r room

and fitne s s ce nte r. W e inte rvie w e d private e ngine e ring cons ul tants and SSA

1
    A K ath abar s y s te m is a de s iccant de h um idification s y s te m th at ch e m icall
                                                                                             y de h um idifie s us ing a
lith ium ch loride s ol  ution as th e de s iccant. Itcool    s and de h um idifie s allof th e outdoor air brough t in
th rough th e ve ntil  ation s y s te m for th e M e tro W e s t buil
                                                                    ding. Ifoutdoor air is not conditione d
prope rl  y by th e K ath abar unit, th e air dis tribute d th rough out th e buil   ding col le cts additionalm ois ture
in ce iling ducts . Th e pre s e nce of e xce s s m ois ture h as be e n ide ntifie d by e xpe rts as a s ource for
m icrobialgrow th s ;and th is pre s e nce , in s om e ins tance s , h as be e n l  ink e d to cons ide rabl e h e alth
h azards .



                                                          i
m e ch anical , el
                 e ctrical
                         , arch ite cturaland s tructurale ngine e rs , and SSA buil   ding
contract m ainte nance pe rs onne l   . W e als o re vie w e d a copy of th e O ctobe r 19 9 6
re port pre pare d by an outs ide e ngine e ring and arch ite cturalfirm h ire d by SSA to
m ak e re com m e ndations for re cons truction of th e com pute r room . In addition, w e
conducte d an on-s ite ins pe ction of th e com pute r room and K ath abar l     ocations
w ith in th e SSA M e tro W e s t building.

RESULTS O F REVIEW

W e found s e ve ralconditions l      e ading to cons truction cos t ove rruns of th e A W R
com pute r room w h ich w e re caus e d by not fol       l
                                                         ow ing form alproce dure s to
docum e nt contract de ficie ncie s and m onitor contract pe rform ance . Th e Ge ne ral
Se rvice s A dm inis tration (GSA )did not tak e action to e ns ure contractor com pl          iance
during cons truction and l     e galdis pute s e xte nde d finalacce ptance of th e contract,
le aving de ficie ncie s unre s ol ve d. Probl e m s w ith th e fitne s s ce nte r's cons truction
al s o invol
           ve d inade q uate m onitoring of th e cons truction contract. Final          l
                                                                                        y, l ack of
training and fail  ure to im pl  e m e nt an im prove m e nt pl an caus e d ine ffe ctive
m ainte nance of th e K ath abar s y s te m and th e ne e d for its pre m ature re pl    ace m e nt.

CO NCLUSIO NS AND RECOMMENDATIO NS

A W R Com pute r Room and Fitne s s Ce nte r

• Fol low control    s and proce dure s th at re q uire docum e ntation of cons truction
  de ficie ncie s s o th at SSA can h old th e contractor re s pons ible for corre cting
  cons truction de ficie ncie s be fore paym e nt.

• Foll
     ow contract re q uire m e nts and incl   ude D ivis ion of A rch ite cture and
  Engine e ring Se rvice s (D A ES)s taff in ongoing m onitoring of th e cons truction
  proce s s be fore ch ange orde rs are approve d.

• Follow proce dure s th at re q uire th e Contracting O ffice r (CO ) to tak e corre ctive
  action on cons truction de ficie ncie s w h e n firs t re porte d.

• Coordinate le galm atte rs w ith GSA re garding th e e xpe nditure of A ge ncy funds
  due to contract noncom pl   iance and fail
                                           ure to e xe rcis e pe nal
                                                                   ty provis ions .

K ath abar Sys te m

• Ens ure th at th e K ath abar s y s te m is prope rl
                                                     y te s te d and m aintaine d.

• Prope rly train m ainte nance and e ngine e ring pe rs onne lon th e ne w l
                                                                            y ins tal
                                                                                    led
  K ath abar s y s te m .



                                                ii
• Im ple m e nt th e e nh ance d ins pe ctions cal
                                                 le d for in th e 19 9 5-19 9 6 K ath abar
  w ork pl an re com m e nde d by th e outs ide cons ul  tant firm .

AGENCY CO M M ENTS

SSA h ad a num be r of ge ne ralcom m e nts in its re s pons e to th e O ffice of th e

Ins pe ctor Ge ne ral(O IG). SSA did not agre e w ith th e re port findings th at additional

cos ts for th e cons truction proje cts w e re caus e d by ine ffe ctive m onitoring of

contracts or th at th e K ath abar s y s te m w as ine ffe ctive l

                                                                 y m aintaine d. In addition,
SSA e xpre s s e d conce rn th at pe rtine nt inform ation w as not incl  ude d in th e
pre lim inary ve rs ion of th e re port, appropriate s taff h ad not be e n inte rvie w e d, and
th e auditors tal  k e d w ith s om e individual
                                               s not on th e proje ct te am s w h o w e re not
fam iliar w ith th e contract s pe cifications . Se e A ppe ndix A for th e ful  lte xt of th e
A ge ncy’ s com m e nts .

O IG RESPO NSE

Th e cons truction de ficie ncie s w e re porte d conce rning th e A W R com pute r room
w e re al s o ide ntifie d and docum e nte d in a re port th at SSA re q ue s te d from a private
contractor. Cons truction de ficie ncie s in th e fitne s s ce nte r w e re al        s o ide ntifie d in a
re port pre pare d by SSA’      s proje ct office r and arch ite cturaland e ngine e ring s taff.
O ur re vie w of SSA proje ct fil    e s and oth e r e vide nce indicate d th at w ritte n guidance
and proce dure s re q uiring m onitoring and te am ins pe ctions w e re not fol             low e d to
e ns ure adh e re nce to contract re q uire m e nts . W e re vie w e d al       ldocum e ntation
s uppl ie d to us by SSA and conducte d inte rvie w s w ith s taff ide ntifie d by SSA,
incl uding th os e w h om w e be l    ie ve d pos s e s s e d th e firs t-h and k now l
                                                                                      e dge ne e de d to
te ch nical ly as s e s s both re novation proje cts .




                                                   iii
                 TA BLE O F CO NTENTS


                                                                                              Page

EXECUTIVE SUM M A RY ...................................................................... i


INTRO D UCTIO N ............................................................................... 1


RESULTS O F REVIEW ....................................................................... 5


    A W R CO M PUTER RO O M CO NTRACT CLO SED W ITH O UT

    D EFICIENCIES BEING CO RRECTED ................................................. 5


    • W ritte n Proce dure s to D ocum e nt Contract D e ficie ncie s and

      M onitor Contractor Pe rform ance Exis te d but W e re Not Fol        l
ow e d .... 5
    • SSA and GSA D id Not Tak e A ction to Ens ure Contractor

      Com pl
 iance during Cons truction ................................................ 6
    • SSA H ire d Anoth e r A rch ite cturalFirm to A s s e s s th e D e ficie ncie s .... 7


    CO NTRACT REQUIREM ENTS W ERE NO T FO LLO W ED IN

    O VERSEEING TH E FITNESS CENTER PRO JECT................................. 8


    • Contractor Privy to O ffice of A cq uis ition and Grants and D A ES

      D is agre e m e nts ...................................................................... 11


    SSA ’
        S M A NAGEM ENT O VERSIGH T O F K A TH A BAR SYSTEM

    INEFFECTIVE............................................................................. 11


    • Prope r M ainte nance Proce dure s Not Im pl
 e m e nte d....................... 11
    • Fail
         ing North K ath abar Re pl

                                   ace d .............................................. 12

CO NCLUSIO NS AND RECOMMENDATIO NS........................................ 13


A PPEND ICES


A PPEND IX A - SSA Com m e nts to th e D raft Re port
A PPEND IX B - M ajor Contributors to Th is Re port
A PPEND IX C - SSA O rganizationalCh art
                          INTRO D UCTIO N


O BJECTIVES

Th e firs t obje ctive of th is e val
                                    uation w as to de te rm ine re as ons for cos t ove rruns
conne cte d w ith tw o cons truction proje cts for w h ich SSA contracte d--one at SSA
H e adq uarte rs in W oodl  aw n, M aryl  and, and th e oth e r at th e M e tro W e s t Com pl  ex
in Bal tim ore , M aryland. Th e s e cond obje ctive w as to re vie w th e m ainte nance of
th e K ath abar e q uipm e nt th at de h um idifie s th e air for th e M e tro W e s t Com pl
                                                                                            e x.

BACKGROUND

W e initiate d a re vie w bas e d on a l   e tte r from Congre s s m an Robe rt L. Eh rich  l , Jr.
conce rning cos t ove rruns of tw o cons truction proje cts and th e m ainte nance of
e q uipm e nt th at de h um idifie s th e air for th e M e tro W e s t Com pl  e x in
Bal  tim ore , M aryland. Spe cifical    l
                                         y, th e Congre s s m an as k e d about a re ce ntl     y
cons tructe d com pute r room th at re q uire s m ajor m odifications to re pair de ficie ncie s
in th e originalw ork m ans h ip. H e al    s o as k e d h ow m uch it w oul   d cos t SSA to re pair
th is room and w h y th e contractor w as paid if th e cons truction w as d e ficie nt. Th is
com pute r room is l    ocate d at SSA ’   s M e tro W e s t Com pl  e x in Bal tim ore , M aryl   and.
Th e s e cond cons truction proje ct invol      ve s re novations of a fitne s s ce nte r l   ocate d at
SSA H e adq uarte rs in W oodl      aw n, M aryl  and. M r. Eh rl  ich as k e d if cos t ove rruns
w e re due to l   ack of m anage m e nt ove rs igh t. Th e Congre s s m an al      s o re q ue s te d
inform ation about a de h um idifying s y s te m , cal      l
                                                            e d a K ath abar. H e as k e d if it is
be ing re pl  ace d be caus e it h as ne ve r be e n m aintaine d prope rl   y;and if s o, w h at th e
cos t is to re pl ace it.

M ul
   tipl
      e Com pone nts Invol
                         ve d in Cons truction M anage m e nt and O ve rs igh t

Re s pons ibility for cons truction m anage m e nt and ove rs igh t fal   ls unde r th e auth ority
of th re e SSA com pone nts w ith in th e O ffice of th e D e puty Com m is s ione r for
Finance , A s s e s s m e nt and M anage m e nt. Th e O ffice of Facil  itie s M anage m e nt’s
(O FM )O ffice of Re al    ty M anage m e nt (O RM )dire cts SSA’    s nationalre al ty program .
Unde r O RM , th e D ivis ion of Proje ct M anage m e nt (D PM )h as th e ove ral    l
             ity for as s igning a Proje ct O ffice r (PO ) to e ns ure ade q uacy of
re s pons ibil
cons truction de s igns and coordination during both th e de s ign and cons truction
ph as e s . Th e s e re s pons ibil
                                  itie s incl
                                            ude day-to-day cons truction m anage m e nt,
ins pe ctions , and ce rtification of invoice s . Th e O ffice of O utl  ying Buil dings




                                                   1

M anage m e nt provide s buil   ding m ainte nance and h as s k il   le d s taff avail
                                                                                     able to as s is t
in cons truction ove rs igh t.
Exte rnalto SSA , th e actualcontract is adm inis te re d by GSA. A CO and a
Contracting O ffice r’  s Te ch nicalRe pre s e ntative (CO TR)are as s igne d to th e
contracte d proje ct. GSA ’    s CO is th e onl  y pe rs on w ith auth ority to give dire ction
to th e contractor. GSA ’    s CO TR, as s is te d by h is /h e r ow n te am of ins pe ctors , is
re s pons ibl
            e for e ns uring th at de s igns are com pl   e te d on tim e , cons truction is
m anage d, ins pe ctions are m ade , and invoice s are ce rtifie d.

O RM W ritte n Re vie w Proce dure s

O RM h as w ritte n re vie w proce dure s to be us e d by D PM . Guidance is give n s o
te am m e m be rs w illunde rs tand th e ir rol
                                              e s as m e m be rs of a proje ct re vie w te am .
D uring de s ign and cons truction ph as e s , th e D PM proje ct m anage r is official   l
                                                                                          y
de s ignate d as th e PO . Th e PO acts on be h al   f of th e A ge ncy and is to ful   l
                                                                                        y
coope rate w ith GSA ’  s CO and CO TR to re s ol    ve any is s ue s w ith e ngine e ring and
cons truction contractors . Te am m e m be rs or com pone nt s taff m e m be rs cannot
contact th e contractor w ith out th e PO ’   s k now le dge and approval    .

Cons truction of th e A W R Com pute r Room

In April19 9 3, a contract w as aw arde d by GSA, in cons ul         tation w ith SSA , for a
fas t-track proje ct to cons truct a com pute r room to h ous e th e A W R ope ration. Th is
cons truction w as re q uire d to im pl e m e nt A ge ncy pl ans to pe rm ane ntl y m ove th e
A W R ope ration from th e NationalCom pute r Ce nte r buil       ding in
W oodl  aw n, M aryl and, to th e M e tro W e s t buil ding in Baltim ore , M aryland. Itw as
im pe rative to com pl  e te cons truction prior to th e e nd of th e 19 9 3 tax ye ar in orde r
to pre cl ude proce s s ing th e A W R ope ration in tw o l  ocations . Th is data ope ration
facility occupie s approxim ate l   y 11,000 s q uare fe e t. Th e com pute r room cons is ts
of th re e data s torage room s and tw o com pute r room w ork are as . Th e contract
w as initial ly aw arde d for $451,000;but, due to contract m odifications , th e final
cos t total e d $568,004.

D uring th e planning and cons truction of th e com pute r room , an SSA PO w as
e xpe cte d to provide ove rs igh t, as w e l
                                            las re port to GSA ’s CO TR.2 Effe ctive and
tim e l
      y com m unication be tw e e n th e PO and CO TR is e s s e ntial
                                                                     . If th e PO be com e s
aw are of any de viations from contract obje ctive s , th e s e de viations m us t be




2
  SSA guide l ine s re q uire D PM ’s PO to function as th e “eye s and e ars ”of th e proje ct, m onitor th e
cons truction s ite , and re port to GSA ’s CO TR.




                                                       2

re porte d to th e CO . Such notification e nabl  e s th e CO to cons ide r e xe rcis ing
contract provis ions th at e ns ure th at th e contractor is in com pliance w ith contract
re q uire m e nts and s pe cifications .3




Cons truction of th e Fitne s s Ce nte r

Th e fitne s s ce nte r, locate d at SSA H e adq uarte rs in W oodl       aw n, M aryl  and, w as
e xpande d be caus e m e m be rs h ip h ad incre as e d s ignificantl    y and m ore s pace w as
ne e de d. Th e contract w as aw arde d in Jul     y 19 9 3 and cons truction w as com pl         e te d
in June 19 9 4. For th e fitne s s ce nte r proje ct, unl    ik e th e A W R com pute r room , th e
CO w as s e l  e cte d from SSA ’  s O ffice of A cq uis ition and Grants (O A G)rath e r th an
from GSA . Th e PO w as as s igne d from SSA 's D PM . Th e PO ove rs aw th e proje ct
and re porte d cons truction progre s s to O A G. Th e PO al          s o w ork e d w ith D A ES,
w h ich de s igne d th e proje ct, provide d th e draw ings and s pe cifications , and
provide d te ch nicalinput to e ns ure adh e re nce to th e de s ign and s pe cifications
during cons truction.

M onitoring th e K ath abar Sys te m

Th e K ath abar s y s te m is a de h um idification s y s te m w h ich ch e m ical  l
                                                                                    y de h um idifie s
th e air by us ing a l  ith ium ch l oride s ol ution. Th e s y s te m is locate d in th e M e tro
W e s t buil ding. Th e re are tw o K ath abars : one s e rve s th e North Buil      ding and th e
oth e r s e rve s th e South Buil   ding. Th is s y s te m cool s and de h um idifie s allof th e
outdoor ve ntil    ation for th e M e tro W e s t buil  ding. Ifoutdoor air is not conditione d
prope rl  y by th e K ath abar unit, th e air th at is distribute d th rough out th e buil     ding
col le cts additionalm ois ture in ce il    ing ducts . Th e pre s e nce of e xce s s m ois ture h as
be e n ide ntifie d by e xpe rts as a s ource for m icrobialgrow th s and, in s om e
ins tance s , th is pre s e nce h as b e e n link e d to cons ide rable h e al
                                                                             th h azards ,
e .g., le gionnaire s ' dis e as e . Probl e m s h ave be e n e xpe rie nce d w ith both s y s te m s
ove r th e ye ars , but th e s y s te m s e rving th e North Buil   ding w as in a s tate of critical
dis re pair and w as re pl   ace d in A pril19 9 7.

SCO PE A N D M E TH O D O LO GY

W e e xam ine d contracts , cons truction and m ainte nance docum e nts ,

corre s ponde nce , m e m os , and oth e r avail abl e re cords re l
                                                                   ate d to th e com pute r room

and fitne s s ce nte r. W e inte rvie w e d e ngine e ring cons ultants and SSA m e ch anical  ,

3
   GSAR 552.246-75 guarante e s - Ifw ith in any guarante e pe riod, th e CO finds th at guarante e d
w ork re q uire s re pair or ch ange be caus e of de fe ctive or infe rior m ate rial
                                                                                    s , e q uipm e nt, or
w ork m ans h ip, or is not in accordance w ith contract re q uire m e nts , th e contracting office r s h allnotify
th e contractor in w riting. Th e contractor m us t prom ptl     y, and w ith out additionale xpe ns e to th e
Gove rnm e nt, corre ct al  lguarante e d w ork and al   ldam age s re s ulting from th e uns atis factory
guarante e d w ork . If th e contractor fail  s to proce e d prom ptl  y, th e Gove rnm e nt m ay h ave s uch w ork
pe rform e d at th e e xpe ns e of th e contractor.



                                                         3

ele ctrical , arch ite cturaland s tructurale ngine e rs , and SSA buil  ding contract
m ainte nance pe rs onne l   . W e als o re vie w e d a copy of th e O ctobe r 19 9 6 re port
pre pare d by an outs ide e ngine e ring and arch ite cturalfirm h ire d by SSA to m ak e
re com m e ndations for re cons truction of th e com pute r room . In addition, w e
conducte d an on-s ite ins pe ction of th e com pute r room and K ath abar l       ocations
w ith in th e SSA M e tro W e s t building.

O ur e val uation w as conducte d from Nove m be r 19 9 6 to June 19 9 7. Th is
ins pe ction w as conducte d in accordance w ith th e Q ual    ity Standards for
Ins pe ctions is s ue d by th e Pre s ide nt’
                                            s Councilon Inte grity and Efficie ncy.




                                                4

                     R E S U LTS O F R E VIE W

A W R CO M PUTER RO O M CO NTRACT CLO SED W ITH O UT
D EFICIENCIES BEING CO RRECTED

Al th ough SSA and GSA ack now l     e dge d cons truction de ficie ncie s , th e A W R
com pute r room contract w as cl    os e d out w ith out re s ol
                                                               ving m any of th e probl  ems.
W e found s e ve ralcircum s tance s contributing to th e pre m ature cl    os ure and th e
s ubs e q ue nt additionalcos ts incurre d in orde r to corre ct th e de ficie ncie s .

W ritte n Proce dure s to D ocum e nt Contract D e ficie ncie s and M onitor Contractor
Pe rform ance Exis te d but W e re Not Follow e d

Spe cific guide l    ine s e s tabl is h a s y s te m for re porting de ficie ncie s as th e y are
dis cove re d. Th e guide l      ine s al s o provide for s y s te m atic m onitoring and fol    low -up
docum e ntation of th e w ork be ing done to corre ct de ficie ncie s . Th e re is al             so
w ritte n guidance w ith in O FM re q uiring te am ins pe ctions during th e diffe re nt
ph as e s of cons truction. Eve n th ough D PM h as w ritte n guidance and proce dure s
to e xpl ain th e re s pons ibil   itie s of on-s ite s taff and th e PO during cons truction, th e
proce dure s w e re not fol       low e d. O n-s ite s taff re porte d th e y w e re unaw are of th e s e
proce dure s and unce rtain about th e re porting re q uire m e nts .4 Contract s taff, w h o
w e re al s o re s pons ibl  e for buil   ding m ainte nance , w e re not provide d w ith a
cons truction s ch e dul      e w h ich w oul    d h ave e nabl e d th e m to m onitor progre s s of
w ork s ch e dul   e d for com pl    e tion on any give n day.

In January 19 9 4, th e A W R com pute r room w as occupie d afte r cons truction w as
s ubs tantially com ple te d. Im m e diate l y, num e rous s ubs tantive com pl     aints w e re
re porte d by th e occupants to th e buil     ding m ainte nance pe rs onne lconce rning h igh
                                                                                  5


te m pe rature and h um idity l e ve ls , m al
                                             functioning of th e autom atic te m pe rature
controls y s te m , and w ate r le ak age into th e com pute r room s pace . Th e buil       ding
m ainte nance s taff im m e diate l y re s ponde d to th e s e com pl  aints and atte m pte d to
s e rvice and m aintain th e com pute r room . H ow e ve r, th e y found th e y coul      d not
re pair th e air conditioning and te m pe rature pane l     s b e caus e th e re w as no acce s s to
th e controlunits . Th is s ituation w as onl    y th e firs t in a s e rie s of m any com pl  aints
th at th e building m ainte nance s taff w oul   d atte m pt to s e rvice . Th e y inform al  ly
4
   Th e s e guide l
                  ine s re q uire on-s ite s taff to participate in progre s s ins pe ctions , s e rve as te am
m e m be rs , and m e e t progre s s s ch e dules.

5
  Buil
     ding m ainte nance pe rs onne lat th e M e tro W e s t buil
                                                               ding cons is ts of private , on-s ite contractors
and SSA m ainte nance s taff. Both s e rvice th e building ful l-tim e .




                                                            5

re porte d th e s e conditions and oth e rs to th e PO w ith th e be l
                                                                     ie f th at th e re porte d
de ficie ncie s w oul d be brough t to th e contractor's atte ntion for prom pt corre ction.

D uring our inte rvie w w ith th e PO , w e w e re tol    d th at form aldocum e ntation of
cons truction progre s s to GSA ’      s CO TR w as not re q uire d nor w as form al
s ubs tantiation of de ficie ncie s ne e de d. Th is particul   ar proje ct w as not s e e n by th e
PO as l   arge , cos tly, or com pl  icate d e nough to ne ce s s itate giving oth e r te am
m e m be rs a cons truction s ch e dul   e to ch e ck for progre s s .6 W e w e re al s o inform e d
th at th e PO fe l t th at h is individualins pe ctions w e re s ufficie nt and th at h e did not
re gularl y invol ve oth e r te am m e m be rs in re q uire d ins pe ctions . M ore ove r, h e
re porte d dire ctl y to GSA ’   s CO TR w ith out re gul arly confe rring w ith oth e r te am
m e m be rs during cons truction. Its h oul      d be note d th at ne ith e r th e PO nor th e CO
h ad a dail  y pre s e nce at th e cons truction s ite and onl    y m onitore d its progre s s on an
irre gular bas is .

SSA and GSA D id Not Tak e A ction to Ens ure Contractor Com pl
                                                              iance D uring
Cons truction

SSA and GSA s h are d re s pons ibil     ity for m onitoring th e contract. M ul   tipl
                                                                                      e
de ficie ncie s w e re re porte d to GSA by SSA on se parate "punch l       is ts " during th re e
                                                                                   7


diffe re nt tim e pe riods afte r s ubs tantialcons truction w as com pl  e te d. GSA h ad its
ow n ins pe ction te am to pe rform ove rs igh t dutie s and h ad th e opportunity to
obs e rve any de ficie ncie s and h ave th e contractor corre ct de ficie ncie s as th e y w e re
ide ntifie d. H ow e ve r, GSA did not tak e any action to addre s s de ficie ncie s until
cons truction w as s ubs tantial    ly com pl e te d and th e A W R com pute r room w as
occupie d.

GSA ’  s CO TR ack now l   e dge d th at cons truction e rrors w e re ide ntifie d w h il
                                                                                        e
cons truction w as in progre s s . H ow e ve r, GSA cl     os e d out th e contract afte r
18 m onth s of dis pute s conce rning th e s e de ficie ncie s w ith out re q uiring th e
contractor to corre ct th e de ficie ncie s . GSA ins titute d l   e galproce dure s to im pos e
pe nal tie s onl
               y afte r th e room w as com pl    e te d and occupie d. GSA ’    s CO TR th ough t
th e contract ne e de d to be cl   os e d out for practicalre as ons ;i.e ., th e A W R s taff
ne e de d to us e th e room and th e e q uipm e nt w arranty w as going to e xpire in a ye ar.


6
    Fe de ralA cq uis ition Re gul ation 52.236-15 Sch e dul     e s for Cons truction Contracts - Th e contractor
s h all, w ith in 5 days afte r th e w ork com m e nce s on th e contract . . . pre pare and s ubm it to th e CO
for approval. . . a practicabl      e s ch e dul
                                               e s h ow ing th e orde r in w h ich th e contractor propos e s to
pe rform th e w ork , and th e date s on w h ich th e contractor conte m pl       ate s s tarting and com pl
                                                                                                           e ting . . .
th e w ork .
7
   D uring th e finalw al  k -th rough by buil ding m ainte nance s taff, th e y ins pe ct th e outs tanding
de ficie ncie s and ide ntify th e m on a "punch l   is t." Th is l
                                                                  is t is provide d to GSA ’  s CO TR, w h o is
obl igate d to m ak e s ure th at th e s e probl
                                               e m s are corre cte d w ith in a re as onable tim e .




                                                           6

SSA and GSA did not tak e action to h ave th e de ficie ncie s corre cte d during
cons truction. Im prove d cons truction data and ove rs igh t be tw e e n SSA and GSA
are ne e de d for e nforcing contract com pl    iance . Concurre nt ins pe ctions pe rform e d
th rough out cons truction coul    d h ave pre ve nte d th is condition. A l   lon-s ite building
s taff m us t be give n a cons truction s ch e dul  e in orde r to ove rs e e cons truction
progre s s on a dail y bas is and produce progre s s re ports to w h ich m anage m e nt
re s ponds as d e ficie ncie s are re porte d. If th e s e conditions h ad be e n m e t, both GSA
and SSA w oul    d h ave be e n in a be tte r pos ition to as s e s s th e pote ntiall
                                                                                     iability of
th e contractor.

SSA H ire d Anoth e r A rch ite cturalFirm to A s s e s s th e D e ficie ncie s

A fte r GSA cl  os e d out th e contract, probl   e m s pe rs is te d w ith th e A W R com pute r
room and SSA h ire d an outs ide arch ite cturalfirm , Sorg and A s s ociate s , to as s e s s
th e de ficie ncie s and re com m e nd h ow to re pair th e m . In its O ctobe r 19 9 6 re port to
SSA , Sorg and A s s ociate s confirm e d m ul     tiple de ficie ncie s th at w e re attributable to
th e originalw ork m ans h ip, incl uding de ficie ncie s in th e de s ign, cons truction, and
ope rationalconditions in th e com pute r room . Th e re port, w h ich cos t $73,000,
re com m e nde d ge ne ralde s ign and cons truction corre ctive m e as ure s . Ite m s th at
h ad be e n cons is te ntl
                         y, but inform al  ly, re porte d by th e buil    ding m ainte nance s taff
during cons truction w e re al   s o inve s tigate d, docum e nte d, and confirm e d.

Som e of th e s pe cific de s ign and cons truction de ficie ncie s cite d in th e re port
incl ude d: im prope rl   y ins tal le d H VAC 8 e q uipm e nt, im prope rl y ins tal  l
                                                                                       e d piping on th e
roof l e ve l, fire alarm s pe ak e rs pl  ace d above th e s us pe nde d ce il   ing, im prope rl y
s ize d conde ns ation drain piping, e l      e ctricalde s ign de ficie ncie s , failure to te s t and
ce rtify ne w l  y ins tal
                         led el e ctricaland m e ch anicals y s te m s , fail  ure to obtain th e
contractor’    s ve rification th at th e com pute r room H VAC equipm e nt ins tal          lation
re q uire m e nts com pl  ie d w ith th e e q uipm e nt m anufacture r’   s s tandards , and an air
conditioning unit im prope rl       y s upporte d by th e roof s tructure . In D e ce m be r 19 9 6,
w e as k e d th e PO , h is im m e diate s upe rvis or from D PM , and GSA ’         s CO TR if th e y
coul  d com m e nt on th e findings of th is re port;w e w e re inform e d th at th e y h ad not
re ad it.

SSA h as re ce ntl  y contracte d to re de s ign th e A W R com pute r room due to ch ange s
in us e r ne e ds and als o re pair de ficie ncie s due to th e originalcons truction. Th is
contract h as b e e n aw arde d for $418,824.

SSA incurre d additionalcos ts for th e outs ide firm ’  s as s e s s m e nt and w il
                                                                                    lincur
re novation cos ts , in part, due to ine ffe ctive contract m anage m e nt by both GSA
and SSA . D uring cons truction, opportunitie s w e re m is s e d to tak e action to e ns ure

8
    H e ating, Ve ntil
                     ation and A ir Conditioning



                                                   7

th at th e s e de ficie ncie s w e re corre cte d. SSA ’
                                                       s O FM m anage m e nt w as unabl    e to
e ffe ctive ly tak e action to e ns ure th at GSA did e ve ryth ing pos s ibl
                                                                            e to re pre s e nt




                                                8

SSA ’  s inte re s ts to th e contractor. Th is w as furth e r com pounde d by th e
unce rtaintie s and ine ffe ctive ne s s in fol
                                              low ing re porting and m onitoring proce dure s
inte rnalto SSA , and be tw e e n GSA and SSA .

CO NTRACT REQUIREM ENTS W ERE NO T FO LLO W ED IN O VERSEEING
TH E FITNESS CENTER PRO JECT

Th e adm inis tration of th e contract during th e re novation of th e fitne s s ce nte r w as
th e re s pons ibility of O A G. Th e CO as s igne d from O AG is th e onl   y pe rs on
auth orize d to m odify th e contract or tak e action to e nte r or ch ange a contractual
com m itm e nt on be h al  f of SSA . D PM ’  s PO and D A ES s taff w e re as s igne d to
m onitor th e contractor’    s pe rform ance in accordance w ith th e contract docum e nts
and re l  ay te ch nicalinform ation w h e n pote ntialprobl  e m s occurre d. Th e PO and
D A ES w e re to provide on-s ite m onitoring and te ch nicaldire ction to th e CO in orde r
to e ns ure th at th e w ork w as w ith in th e s cope of th e contract. Th e ir te ch nical
ove rs igh t w oul  d e nable O A G to m ak e inform e d de cis ions about is s uing ch ange
orde rs or contract m odifications at an additionalcos t to SSA . H ow e ve r, th e final
de cis ion to acce pt or de cl  ine ch ange orde rs is m ade by O A G.

Th e cons truction m anage m e nt proce s s is control      l
                                                            e d by th e contract docum e nts
and inte rnalproce dure s th at re q uire coordination be tw e e n th e CO , D PM and
D A ES. Th e contract docum e nts , w h ich cons is t of arch ite cturaldraw ings , a
w ritte n contract, and s pe cifications , m us t be fol   ow e d s o th at D A ES and th e PO
                                                           l
can ade q uate ly m onitor, troubl   e s h oot, and re s pond to probl   e m s as th e y occur.
Th e failure to follow contract re q uire m e nts and th e l    ack of coordination w h il  e
m onitoring th e fitne s s ce nte r proje ct re s ul
                                                   te d in cos t ove rruns and incons is te nt
re vie w of contractor pe rform ance during re novation.

Th e s pe cific controlfunctions of th is contract w e re to: h ol d re gul
                                                                          ar confe re nce s
w ith th e contractor, conduct on-s ite vis its , approve te ch nicaldata s ubm itte d by
th e contractor, and provide ade q uate dire ction to th e contractor. M any of th e s e
contract functions w e re not fol ow e d. For e xam pl
                                  l                     e:

• Cons truction w as s tarte d w ith out a pre -cons truction m e e ting invol   ving al  l
  contract partie s . Th is m e e ting w as not s ch e dule d untilm idw ay th rough
  cons truction, at w h ich point th e PO and D A ES s taff h ad conce rns about
  coordination w ith O A G and m onitoring th e contractor’       s pe rform ance . Th e s e
  conce rns invol ve d clarification of th e s pe cifications , re porting re q uire m e nts to
  O A G invol ving th e ch ange orde r proce s s , and proce dure s for m onitoring and
  m e as uring cons truction progre s s .

Th e contract re q uire d a pre -cons truction confe re nce to re vie w cons truction
docum e nts Th is m e e ting s h ould cove r allm atte rs th at ne e d to be cl
                                                                              arifie d in orde r




                                                9

to avoid a m is unde rs tanding of th e contract re q uire m e nts . Th e s e m atte rs us ual l
                                                                                               y
include cl arification of th e s pe cifications or th e conte nts of th e s tate m e nt of w ork ;
q uality control , re porting re q uire m e nts , and proce dure s for m onitoring and
m e as uring cons truction progre s s . D uring th is pre -cons truction m e e ting, th e
cons truction s ch e dul e is discussed to e ns ure tim e com m itm e nts for com pl    e tion
and to s h ow th e s e q ue nce in w h ich th e w ork is to progre s s .

• Ch ange orde rs 1,3, and 6 w e re pre pare d and w ork w as com pl         e te d e ve n th ough
  th e contractor h ad not s ubm itte d a notification to th e CO w h ich s h oul      d h ave
  incl ude d s ubm is s ion of s h op draw ings and an e s tim ate of th e cos t for additional
  w ork . Ch ange orde r 3 w as ful    ly funde d de s pite th e PO ’  s conce rn th at th e
  additionalw ork w as al    re ady incl ude d in th e originalcontract. D uring th e s e
  s ituations , D A ES s taff did not e val uate w h e th e r th e ch ange orde r w as val  id or
  h ow th e w ork w as to proce e d.

Th e contract re q uire d th e contractor to notify th e CO in w riting of a pe nding
ch ange orde r. Th is pe rm its th e Gove rnm e nt to e val  uate th e re q ue s te d ch ange
and: (1)confirm th at it is a val   id ch ange , dire ct th e m ode of furth e r pe rform ance ,
and pl an for its funding;or (2)counte rm and th e ch ange and notify th e contractor
th at no ch ange is cons ide re d to h ave occurre d.

• Re garding th e w ork re l  ate d to ch ange orde r 6, th e contractor fail   e d to fil
                                                                                         e a
  re port w ith th e CO s pe cifying h ow de m ol  ition w ork w oul  d be pe rform e d. Th e
  contractor w as tol   d to re m ove a door and e nl   arge th e door e ntrance . Th e
  ch ange orde r s pe cifie d th at if th e door w as fil
                                                        le d w ith concre te , h e w as to cut
  th e jam b s o h e w oul dn’ t dam age th e w al l
                                                   . D A ES and PO dail     y logs indicate
  th at th e contractor h am m e re d th e jam b and dam age d th e w al    l. No notification
  w as provide d by th e contractor prior to de m ol     ition e xplaining h is approach to
        ving th e unanticipate d s ite condition. A s a re s ul
  re s ol                                                         t of th e dam age th e
  contractor caus e d to th e door jam b, th e cos t of th e ch ange orde r w as
  incre as e d and s ubs e q ue ntly approve d for funding.

Th e contract re q uire d th at if unanticipate d m e ch anical    , el
                                                                      e ctrical
                                                                              , or s tructural
ele m e nts w h ich confict
                          l w ith th e inte nde d function or de s ign are e ncounte re d, th e
contractor is to s ubm it a re port to th e CO ide ntifying s uch conditions in w ritte n
accurate de tail   . Th e contract al s o re q uire s th at th e contractor is re s pons ibl
                                                                                           e for
dam age s caus e d by de fe ctive w ork m ans h ip

• Additionalfunding w as approve d for ch ange orde r 8 to cons truct prote ctive
                                              re ady incl
  barrie rs , e ve n th ough th e cos t w as al         ude d in th e contract.

Th e contract re q uire d th e cons truction of dus t-proof e nclos ure s or partitions for
prote ction w h e re dus ty or dirty w ork w as pe rform e d at no additionalcos t to th e
Gove rnm e nt.



                                               10

A fte r th e proje ct e nde d, to h e l
                                      p avoid future m is unde rs tandings , th e PO and D A ES
s taff confe rre d th rough form alm e m os about th e proje ct and s ubm itte d a re port to
O A G and D PM m anage m e nt m ak ing re com m e ndations to im prove ove rs igh t and
be tte r docum e nt contract ch ange s . Th e y furth e r re com m e nde d th at m anage m e nt
e s tablis h contractor re q uire m e nts to provide a bas e l ine cons truction proje ct
s ch e dul e , s h ow pe rce ntage s of com pl e tion at re gul
                                                              ar m e e tings , and conduct
m e e tings prior to th e s tart of cons truction to e ns ure th at al   lpartie s h ave an
unde rs tanding of th e proje ct and its re q uire m e nts . Th e fol   low ing are h igh l
                                                                                          igh ts
from th e re port D A ES and th e PO s ubm itte d to th e ir m anage m e nt and O A G
re affirm ing th e re s ults of our re vie w :

• Th re e diffe re nt CO s w e re as s igne d by O A G, re s ul
                                                              ting in inte rruption in
  continuity be caus e m e e ting note s and dis cus s ion re s ul  ts w e re not pas s e d on to
  s ucce s s ors .

• D A ES s taff re q ue s te d, prior to th e s tart and during th e proje ct, a
  pre -cons truction m e e ting w ith O A G to dis cus s th e rol  e s of k e y SSA pe rs onne l
  in conne ction w ith th e proje ct. Th is m e e ting did not tak e pl     ace untilm idw ay
  th rough th e proje ct. Prior to th is m e e ting, th e contractor w as m ak ing m ajor
  de viations from contract s pe cifications and cons truction docum e nts . D A ES
  s taff and th e Proje ct M anage r (PM )m ade an e ffort to bring th e s e probl     e m s and
  de viations to O A G’    s atte ntion on num e rous occas ions but w e re de nie d th e
  opportunity to pre s e nt th e m form al    ly to O A G.

• D A ES s taff pe riodical l
                            y notifie d O A G of contract obje ctive s not be ing m e t by
  th e contractor during th e proje ct. No corre ctive action w as initiate d by th e
  O A G re pre s e ntative and th e contractor w as pe rm itte d to continue w ork e ve n
  th ough contract obje ctive s w e re not be ing m e t.

• Th e re w as confus ion am ong SSA proje ct re pre s e ntative s as to th e ir rol      e s and
  th e ir re l
             ations h ip w ith th e contractor re garding contractualand te ch nical
  dire ction. A s a re s ul   t, th e proje ct s uffe re d from a l
                                                                  os s of q ual
                                                                              ity, h igh e r cos ts ,
  and s ch e dul  ing and m anage m e nt de ficie ncie s .

Th e finalcos t of th e fitne s s ce nte r w as $210,687, of w h ich approxim ate l   y
$40,000 w as due to contract ch ange s . D A ES s taff and th e PO m aintain th at s om e
of th e $40,000 coul     d h ave be e n s ave d if contract provis ions h ad be e n fol
                                                                                      low e d
and if th e inte rnaladm inis trative proce dure s be tw e e n O A G and D PM h ad be e n
            y im pl
e ffe ctive l     e m e nte d. W e concur w ith th at concl   us ion.

W e be lie ve O A G m anage m e nt s h ould e ns ure th at contract re q uire m e nts are
im pl
    e m e nte d and s y s te m atical
                                    ly fol
                                         low e d during cons truction. Th is w oul    d also




                                                 11

e ns ure th at contract ch ange s are valid and not due to a l ack of cons truction
planning, and al  ladditionalcos ts as s ociate d w ith contract ch ange s are al
                                                                                low abl
                                                                                      e.
Contractor Privy to O A G and D A ES D is agre e m e nts

W h e n progre s s m e e tings took pl    ace , proce duralprobl   e m s th at e xis te d be tw e e n
O A G and D A ES w e re ope nl      y dis cus s e d w ith th e contractor pre s e nt. D A ES and PO
dail y logs s h ow th at ite m s for dis cus s ion incl   ude d incorre ct s pe cifications ,
im prope r cons truction m anage m e nt proce dure s , fail      ure to provide contract
docum e ntation to al     lpartie s invol  ve d, de lay of th e contract due to l     ack of m one y,
th e avail abil  ity of m one y for ch ange orde rs , turnove r of th e contracting official
(th re e tim e s ), and q ue s tions re garding th e corre ct docum e ntation for th e ch ange
orde r proce s s .

D A ES re corde d in its dail   y log th at th e s e s ituations s h oul
                                                                       d not h ave be e n
dis cus s e d in th e pre s e nce of th e contractor and th at th is inform ation e nh ance d th e
contractor’    s pos ition be caus e h e w as m ade aw are of th e l    ack of ove rs igh t
control  s . In re s pons e to our draft re port, SSA s tate d th at

       “Itw as pos s ibl e th at, during th e e xch ange of a progre s s m e e ting, th e
       contractor m ay h ave w itne s s e d dis agre e m e nt on as pe cts of th e
proje ct       am ong various te am m e m be rs . H ow e ve r, w e h ave no e vide nce
to     s upport th at h e us e d th e s e m e e tings to intuit a l
                                                                  ack of proje ct
       ove rs igh t or to in s om e w ay incre as e contract cos ts to h is
advantage .”

D A ES s taff w as al  s o inform e d, in th e pre s e nce of th e contractor, th at th e l e ad
arch ite ct w as no l  onge r to im part te ch nicaladvice at al     lduring th e m e e ting. D A ES
s taff and th e PO m ade re q ue s ts to m e e t w ith th e ir m anage m e nt and O A G in
private to dis cus s th e s e organizationalprobl       e m s and cons truction de ficie ncie s , but
th e y w e re not give n an opportunity to do s o. W e be l       ie ve th at SSA s taff coul  d
m ore e fficie ntly and e ffe ctive ly m onitor th e provis ions of a contract if th e y
pre s e nte d a unifie d approach w h e n inte racting w ith a contractor.

SSA ’
    S M A NAGEM ENT O VERSIGH T O F K A TH A BAR SYSTEM
INEFFECTIVE

SSA H VAC engineers , buil       ding contractors , and m anufacturing cons ul           tants
re porte d th at te ch nicalprobl    e m s w ith th e K ath abar s y s te m h ave pe rs is te d as a
re s ul
      t of im prope r m ainte nance , e s pe cial    l
                                                     y due to l  ack of training of m ainte nance
pe rs onne land te s ting of th e e q uipm e nt. Afte r re vie w ing avail     able ins pe ction data
from 19 80 to April19 9 6 from SSA and outs ide cons ul               tants , w e found th at
m ainte nance probl    e m s pe rs is te d ove r th e e ntire s pan of tim e .

Prope r M ainte nance Proce dure s Not Im pl
                                           e m e nte d




                                                 12

A s e arl y as 19 80, an outs ide cons ul      tant re com m e nde d th at ce rtain parts of th e
K ath abar s y s te m be re pl ace d or adjus te d to e l   im inate le ak age in orde r to l ow e r th e
air s uppl  y h um idity to acce ptabl   e le ve ls . A 19 9 4 s um m ary of activitie s pre pare d
by a private cons ul     tant concl  ude d: (1) th e buil    ding contractors did not appe ar to
conduct an active program to m aintain and e val              uate th e e ffe ctive ne s s of th e
K ath abar s y s te m ;(2)ne ith e r th e buil  ding m ainte nance contractor nor M e tro W e s t
facil ity s taff conducte d te m pe rature , re l   ative h um idity, or airfl  ow m e as ure m e nts ;
and (3) th e buil   ding m anage rs w e re not e ffe ctive l    y us ing th e ir K ath abar
s ubcontractor. Th e outs ide cons ul        tant concl   ude d th at, w ith out e xte rnalas s is tance
from th e m , th e buil  ding m anage rs w oul      d not be capabl    e of e val uating or corre cting
ide ntifie d de ficie ncie s in th e K ath abar s y s te m .

A n April7, 19 9 6 re port9 re ve ale d th at outs ide cons ul  tants once again
re com m e nde d th at SSA im pl e m e nt prim ary and e nh ance d e ngine e ring m ainte nance
for both K ath abars . Th e docum e nt al   s o s tate s th at SSA s h oul
                                                                         d im ple m e nt al
                                                                                          lof
th e propos e d 19 9 5-19 9 6 m ainte nance w ork pl    an re com m e ndations th at h ad not
be e n im pl
           e m e nte d to date .

Fail
   ing North K ath abar Re pl
                            ace d

SSA re pl   ace d th e fail
                          ing North Buil    ding's K ath abar s y s te m w ith a ne w “K ath apac”
s y s te m w h ich w as ins talle d in A pril19 9 7. Th e cos t for re pl  acing th e North
K ath abar w as $9 50,000. Th e K ath apac is curre ntl         y be ing ope rate d and
m aintaine d by th e contractor, but s oon SSA pe rs onne lw il          ltak e ove r th e
m ainte nance . SSA ’    s buil ding m ainte nance s taff and th e on-s ite contractors h ave
re ce ive d training from th e K ath apac m anufacture rs . SSA ’        s PM w ille val  uate th e
ade q uacy of training th e y h ave re ce ive d and, on th e bas is of th os e findings , SSA
m us t de te rm ine if furth e r training is ne ce s s ary be fore th e y tak e ove r th is
m ainte nance function from th e m anufacture r.

In addition to th e h igh cos t for th is e q uipm e nt, additionalh e al    th and s afe ty as pe cts
m us t be cons ide re d to e ns ure th at th e e q uipm e nt is m aintaine d ade q uate l  y and
te s te d re gularly. An SSA docum e nt10 al     s o s h ow e d th at th e cos t of re l
                                                                                       ocating
e m pl  oye e s w ould be e xtre m e l
                                     y proh ibitive and th e l  ogis ticalprobl  e m s w oul d be
ove rw h e l m ing if th e K ath abar is not m aintaine d prope rl  y.



9
  Sum m ary Re port and Re com m e ndations of th e 19 9 5 Cool        ing Se as on, Te l e com m unications
Se rvice Ce nte r M e tro W e s t Inte rve ntion Proje ct, by Ne ilC. D avis , Fe de ralO ccupationalH e alth
Contractor.

10
   A n inte rnalm e m orandum to GSA ’
                                     s Ch e s ape ak e Re al
                                                           ty Se rvice from SSA’
                                                                               s O RM , date d
O ctobe r 16, 19 9 6.



                                                        13

  CO NCLUSIO NS AND RECOMMENDATIO NS


In ans w e r to Congre s s m an Eh rich
                                      l 's inq uiry about cos t ove rruns and m onitoring of
cons truction s ite s by SSA, as w e l    las th e re pl
                                                       ace m e nt and m ainte nance of th e
K ath abar s y s te m , w e found s e ve ralare as th at ne e d im prove m e nt. To avoid future
ine fficie ncie s and unne ce s s ary s pe nding, w e re com m e nd th at SSA :

A W R Com pute r Room and Fitne s s Ce nte r

1. Fol low control    s and proce dure s th at re q uire docum e ntation of cons truction
   de ficie ncie s s o th at SSA can h old th e contractor re s pons ible for corre cting
   cons truction de ficie ncie s be fore paym e nt.

2. Fol low contract re q uire m e nts and incl
                                             ude D A ES s taff in ongoing m onitoring of
   th e cons truction proce s s be fore ch ange orde rs are approve d.

3. Fol low proce dure s th at re q uire th e CO to tak e corre ctive action on cons truction
   de ficie ncie s w h e n firs t re porte d.

4. Coordinate le galm atte rs w ith GSA re garding th e e xpe nditure of A ge ncy funds
   due to contract noncom pl   iance and fail
                                            ure to e xe rcis e pe nal
                                                                    ty provis ions .

K ath abar Sys te m

5. Ens ure th at th e K ath apac s y s te m is prope rl
                                                      y te s te d and m aintaine d.

6. Prope rly train m ainte nance and e ngine e ring pe rs onne lon th e ne w l
                                                                             y ins tal
                                                                                     led
   K ath abac s y s te m .

7. Im ple m e nt th e e nh ance d ins pe ctions cal
                                                  le d for in th e 19 9 5-19 9 6 K ath abar
   w ork pl an re com m e nde d by th e outs ide cons ul  tant firm .

SSA ’
    s GeneralCom m e nts

SSA h ad a num be r of ge ne ralcom m e nts in its re s pons e to O IG. SSA did not
agre e w ith th e re port findings th at additionalcos ts for th e cons truction proje cts
w e re caus e d by ine ffe ctive m onitoring of contracts or th at th e K ath abar s y s te m
w as ine ffe ctive l
                   y m aintaine d. In addition, SSA e xpre s s e d conce rn th at pe rtine nt
inform ation w as not incl    ude d in th e pre lim inary ve rs ion of th e re port, appropriate
s taff h ad not be e n inte rvie w e d, and th e auditors tal  k e d w ith s om e individual
                                                                                           s not




                                               14

on th e proje ct te am s w h o w e re not fam il     iar w ith th e contract s pe cifications . In
addition, SSA w as disappointe d th at th e draft re port continue d to contain a
num be r of inaccuracie s and om is s ions criticalto obje ctive l               uating e ve nts th at
                                                                           y e val
trans pire d. SSA indicate d th at it w as im practicalto appl           y a traditionalaudit
approach to com pl      e x is s ue s w ith im plications b e y ond th e cons truction proje ct. In
addition, SSA note d th at to approach th e s e is s ue s from th e pe rs pe ctive th at
incre as e d ove rs igh t w oul  d h ave s ol ve d th e s e proble m s is not w e l
                                                                                  l-founde d.

O IG Re s pons e to Ge ne ralCom m e nts

Th e cons truction de ficie ncie s w e re porte d conce rning th e A W R com pute r room
w e re al s o ide ntifie d and docum e nte d in a re port th at SSA com m is s ione d e ntitl       ed
Inve s tigation and Eval     uation of th e A nnualW age Re port Com pute r Room
Expans ion Proje ct. Th is re port w as pre pare d and is s ue d by th e arch ite ct and
e ngine e ring firm of Sorg and A s s ociate s on O ctobe r 4, 19 9 6. Cons truction
de ficie ncie s w e re al s o ide ntifie d in th e re port Re novations & A l    te rations to th e
SocialSe curity Adm inis tration Fitne s s Ce nte r pre pare d and is s ue d by SSA’           s
arch ite cturaland e ngine e ring s taff and th e PO for th e proje ct. O ur re vie w of SSA
proje ct fil e s and oth e r e vide nce obtaine d during th e cours e of th e e val       uation
corroborate d th at w ritte n guidance and proce dure s re q uiring m onitoring and te am
ins pe ctions w e re not fol    low e d to e ns ure adh e re nce to contract re q uire m e nts . W e
als o re porte d on s tudie s pre pare d by an outs ide cons ul        tant in 19 9 4 and 19 9 6
w h ich attribute d th e K ath abar s y s te m m al     functions to im prope r m ainte nance and
re com m e nde d im prove d training and e nh ance d e ngine e ring m ainte nance . W e
re vie w e d al ldocum e ntation s uppl      ie d to us by SSA and conducte d inte rvie w s w ith
appropriate s taff ide ntifie d by SSA. W e al           s o conducte d inte rvie w s w ith oth e rs
w h om w e be l   ie ve pos s e s s th e firs t-h and k now l e dge ne e de d to te ch nicaly as s e s s
                                                                                            l
both re novation proje cts and th e crite ria unde r w h ich th e s e proje cts w e re to be
m onitore d.

Spe cific SSA com m e nts and O IG re s pons e s conce rning e ach re com m e ndation
fol
  low :

A W R Com pute r Room and Fitne s s Ce nte r

1. Fol low control    s and proce dure s th at re q uire docum e ntation of cons truction
   de ficie ncie s s o th at SSA can h old th e contractor re s pons ible for corre cting
   cons truction de ficie ncie s be fore paym e nt.

    SSA Com m e nt

    SSA h as control     s and proce dure s in pl ace to docum e nt cons truction
    de ficie ncie s . Th e s e proce dure s provide for day-to-day cons truction
    m anage m e nt, ins pe ctions , docum e ntation of contractor cons truction



                                                   15

   de ficie ncie s , and tim e ly notification to th e contracting auth ority;i.e ., SSA 's
   O A G and GSA . Al        lproje ct te am m e m be rs in O FM are give n a copy of th e
   proce dure s to re vie w at th e be ginning of a proje ct. Te am m e m be rs are
   as s igne d on a rotating bas is . At one tim e or anoth e r, ne arl    y al
                                                                              lO FM e m pl oye e s
   h ave s e rve d on proje ct te am s . In addition, te am m e m be rs are m ade aw are of
   th e ir re s pons ibil
                        itie s unde r Fe de ralA cq uis ition Re gul
                                                                   ation (FAR) th rough
   m andate d training.

   O IG Re s pons e

   O ur re vie w dis cl os e d th at control   s and proce dure s to docum e nt cons truction
   de ficie ncie s w e re not im pl  e m e nte d on a day-to-day bas is w h ile cons truction
   w as in progre s s . W e al    s o coul  d not find e vide nce in SSA fil
                                                                           e s th at te am
   ins pe ctions w e re part of th e m onitoring proce s s during cons truction.

2. Fol low contract re q uire m e nts and incl
                                             ude D A ES s taff in ongoing m onitoring of
   th e cons truction proce s s be fore ch ange orde rs are approve d.

   SSA Com m e nt

   Th is is s tandard O FM practice . W ritte n proce dure s s pe cifical    ly addre s s
   e s tablis h ing a m ul
                         ti-dis cipl
                                   inary proje ct te am . Th e proje ct te am routine l   y
   incl ude s arch ite cturaland e ngine e ring s taff, as w e l las s e curity, e nvironm e ntal
                                                                                                ,
   h e alth and s afe ty, and s h op pe rs onne l(e le ctricians , ope rating e ngine e rs ,
   pl um be rs , and carpe nte rs ).

   O IG Re s pons e

   D uring our re vie w of both proje cts , w e found th at ongoing m onitoring of
   cons truction in proce s s w as ine ffe ctive and th at e xis ting proce dure s w e re not
   follow e d. Th e re w as a l   ack of coordination am ong th e various com pone nts
   w h o w e re re q uire d to participate on proje ct te am s ;th e re fore , ade q uate
   ove rs igh t of th e cons truction proce s s w as not e ns ure d. Te ch nicals taff on both
   proje cts w e re not as s igne d cl  e ar rol e s to e valuate th e progre s s of cons truction.
   Th e s e te ch nicals taff and m anage rs confirm e d th at th e y did not tak e part in a
   coordinate d te am e ffort and w e re not dire cte d to participate in al           lph as e s of th e
   cons truction pl   anning proce s s . Th e s e ph as e s incl   ude d participating in pre -
   cons truction m e e tings , re ce iving th e cons truction s ch e dul      e to m e as ure th e
   contractor’    s progre s s , dail
                                    y s ite vis its , progre s s m e e tings , ins pe ctions w ith
   GSA , and producing progre s s re ports to ide ntify de ficie ncie s .




                                                  16

3. Fol low proce dure s th at re q uire th e CO to tak e corre ctive action on cons truction
   de ficie ncie s w h e n firs t re porte d.

   SSA Com m e nt

   SSA h as proce dure s in pl    ace for re s ponding tim e l y to re porte d and docum e nte d
   cons truction de ficie ncie s . FAR and th e te rm s and conditions of O A G and GSA
   cons truction contracts addre s s and provide for s uch corre ctive action. Th e CO
   can ch oos e from s e ve ralk inds of corre ctive actions (ve rbaladm onis h m e nts ,
   w ritte n adm onis h m e nts , de faul
                                        t te rm ination’
                                                       s , e tc.)de pe nding upon th e CO 's
   de te rm ination of th e nature and s e ve rity of th e s ituation.

   O IG Re s pons e

   O ur re vie w dis clos e d th at cons truction de ficie ncie s w e re not ide ntifie d during
   th e cons truction proce s s . W e be l  ie ve th at inade q uate m onitoring and
   ins pe ctions w h ile w ork w as in proce s s pre ve nte d th e ide ntification of
   de ficie ncie s during cons truction.

4. Coordinate le galm atte rs w ith GSA re garding th e e xpe nditure of Age ncy funds
   due to contract noncom pl   iance and fail
                                            ure to e xe rcis e pe nal
                                                                    ty provis ions .

   SSA Com m e nt

   SSA routine l    y coordinate s w ith GSA during cons truction proje cts , and h as input
   and re com m e nds corre ctions for contract noncom pl                iance . D uring cons truction,
   a pe nal ty is im pos e d by w ith h ol  ding a pe rce ntage of th e contractor's m onth l            y
   progre s s paym e nt. Afte r s ubs tantialcom pl         e tion and/or be ne ficialoccupancy
   (date of finalacce ptance )and th e ge ne ration of a "punch l                 is t" (proble m s to be
   addre s s e d), th e CO m ay im pos e pe nal      tie s if th e contractor fail     s to corre ct
   "punch l   is t" de ficie ncie s . H ow e ve r, th e contractor is give n e ve ry opportunity,
   including prol    onge d ne gotiations , to corre ct de ficie ncie s be fore pe nal         tie s are
   im pos e d. Th e finalde cis ion to im pos e pe nal        tie s re s ts w ith th e contracting
   auth ority (O A G or GSA )and its l       e gals taff.

   O IG Re s pons e

   GSA w aite d untilth e com pute r room w as occupie d and s ubs tantial          l
                                                                                    y com pl   e te d
   prior to initiating le galproce dure s to im pos e pe nal   tie s . W e be l
                                                                              ie ve th e tim e ly
   im pos ition of pe nal ty claus e s for fail
                                              ure to com pl   y w ith contract provis ions
   w oul d h ave re s ul
                       te d in corre ction of de ficie ncie s prior to e xpiration of w arranty
   pe riods .




                                                  17

K ath abar Sys te m

5. Ensure th at th e K ath apac s y s te m is prope rl
                                                     y te s te d and m aintaine d.

   SSA Com m e nt


   Th e ne w K ath apac s y s te m , w h ich re pl

                                                  ace d th e K ath abar s y s te m in th e
   North Buil  ding of M e tro W e s t, w as te s te d and h as b e e n ope rating corre ctl
                                                                                           y
   s ince A pril1, 19 9 7. Th e ne w s y s te m is b e ing ope rate d and m aintaine d
   according to th e m anufacture r's s pe cifications . SSA m aintains ins pe ction l       ogs
   w h ich docum e nt ins pe ctions of th e ne w s y s te m by th e m ainte nance contractor.

   O IG Re s pons e

   W e be lie ve SSA ’
                     s continue d atte ntion to ins pe ctions and ope rational
   m ainte nance w il                 ife of th e ne w K ath apac s y s te m .
                     lm axim ize th e l

6. Prope rly train m ainte nance and e ngine e ring pe rs onne lon th e ne w l
                                                                             y ins tal
                                                                                     led
   K ath apac s y s te m .

   SSA Com m e nt


   Allcontract m ainte nance pe rs onne land al     lSSA e m pl   oye e s re s pons ible for

   ove rs e e ing th e m ainte nance and ins pe ction of th e s y s te m h ave be e n traine d.
   Th is is s upporte d by docum e ntation. Th e M e tro W e s t buil   ding’  s m ainte nance
   contract e xpire s in Augus t 19 9 7. If th e ne w contract is not aw arde d to th e
   curre nt contractor, training w il  lbe s ch e dul
                                                    e d for al lne w m ainte nance
   pe rs onne l .

   O IG Re s pons e

   W e agre e w ith SSA ’
                        s pl
                           an to train ne w m ainte nance pe rs onne l
                                                                     .

7. Im ple m e nt th e e nh ance d ins pe ctions cal
                                                  le d for in th e 19 9 5-19 9 6 K ath abar
   w ork pl an re com m e nde d by th e outs ide consu l  tant firm .

   SSA Com m e nt

   Th e e nh ance d ins pe ctions re com m e nde d in th e re port are be ing conducte d.
   Ins pe ction re ports docum e nt te m pe rature and h um idity m e as ure m e nts from
   19 9 5 to th e pre s e nt.

   O IG Re s pons e




                                               18

W e note th at SSA is im pl
                          e m e nting th is re com m e ndation.




                                         19

A PPEND ICES

         A PPEND IX A


SSA ’
    S CO M M ENTS TO TH E D RAFT REPO RT
  A PPEND IX C


SSA O RGANIZ A TIO N CH ART

                                A PPEND IX B


                   M A JO R CO NTRIBUTO RS TO TH IS REPO RT


O ffice of th e Ins pe ctor Ge ne ral

Gary K ram e r, D ire ctor, Program Audits
Scott Patte rs on, D ire ctor, Eval
                                  uations and Te ch nicalSe rvice s
CarlM ark ow itz, Te am Le ade r
M ary A nn Braycich , Program A nal   yst
